Department of Health and Human Services

                OFFICE
   INSPECTOR GENERAL





   MEDICARE PREPROCEDURE

                          REVIEW





        .f   f,IIVICESO


                           Richard P. Kusserow

       '0



            q"dm
                      l.   INSPECTOR GENERAL
                              JANUARY 1991
                    EXECUTIVE SUMMARY

PURPOSE

The purpose of this report is to assess the cost-effectiveness of the Medicare Peer Review
Organizations ' (PROs) CUITent preprocedure review process.


BACKGROUND

In each State, the Health Care Financing Administration (HCFA) contracts with a Utilization and
Quality Control Peer Review Organization , commonly known as a PRO, to review the
appropriateness and quality of surgery physicians perfonn on Medicare beneficiares. The
HCFA renews or competitively rebids PROs ' contracts on a 3- year cycle. The HCFA administers
the Medicare program and has regulatory oversight of PRO activities. As of April 1989 all PROs
were operating under the third scope of work.

The Consolidated Omnibus Budget Reconciliation Act of 1985 calls for 100 percent peer review
of certain surgical procedures. Under the same Act, the PRO may require a second surgical
opinion when it questions the reasonableness and necessity of a proposed surgery. Regulations
to implement the second opinion provision are cUITently being fonnulated at HCFA.


METHODOLOGY

We obtained HCFA data on the preprocedure reviews PROs conducted under the third scope of
work. The data included the total number of requests for preprocedure review, the percentage of
denied requests, and the negotiated cost associated with the preprocedure review. We compared
this data with the results of a companion OIG study of necessity and quality of outpatient surgery.

We also obtained infonnation from PROs responsible for 28 States representing over 80 percent
of both the Medicare physician expenditures and the eligible population. The infonnation
requested included total number of preprocedure requests; number of preprocedure requests by
procedure; number of requests forwarded to PRO physicians; overall percentage of denied
requests; and denial percentage by procedure. We analyzed secondar data on the preprocedure
review process and its effectiveness. Finally, we obtained PROs ' views on the CUITent
preprocedure review process, and suggestions to improve its effectiveness.
FINDINGS

           PRO preprocedure review for cataract extraction is not cost-effective.

Cataract surgery comprises 52 percent of all preprocedure review requests at the PROs surveyed.
Last year, we estimated PROs for 17 States representing over half of the Medicare eligible
population paid $13. 3 milion for preprocedure review of cataact    surgery. The resulting PRO
denials saved only $1.4 millon.

Only 0. 07 percent of cataract surgeries reviewed by the PROs were denied. By way of contrast
a companion OIG study found , based on a review of records , that 1.7 percent of cataract
extractions were not medically indicated.

           The cost-effectiveness of the preprocedure review process is doubtful for other
           procedures as welL

Last year, the denial rate for all surgery reviewed was 0. 15 percent. Even this figure overstates
denials based on medical necessity, because it includes technical denials for site of service.

           A targeted , more intensive approach could improve preprocedure review for cataract
           extraction.

A targeted program would give the PROs the flexibility to perform their review in the way most
suited to local conditions and practices. Two-thirds of the PROs stated a limited second opinion
program would improve preprocedure review. Most indicated it would be effective for cataract
extractions.

           More data could help PROs identify other procedures for a targeted, more intensive
           reVIew.

The PROs would need local rather than national data to select procedures for a targeted, more
intensive review program because practice patterns differ between and within States. Medicare
carers routinely collect provider profie data. The PROs could use such data to focus a targeted
program on paricular providers, procedures, or geographic areas.


RECOMMENDATIONS

The HCFA should:

                substitute a targeted, more intensive review for the current mandatory
                preprocedure review of cataract surgery.

                 review the current preprocedure review process to determine whether it is
                 cost-effective for   other surgical procedures.
                   continue efforts to implement data exchange between PROs and Medicare
                   carriers.


HCFA COMMENTS AND OIG RESPONSE

In its comments the HCFA took exception to the finding that PRO preprocedure review for
cataract extraction is not cost-effective. The HCFA disagreed with the recommendation to
substitute a targeted , more intensive review for the CUITent mandatory preprocedure review of
cataract surgery. The HCFA did agree with the other two recommendations and is taking action
to address them.

The HCFA did not dispute the fact that preprocedure review for cataract extraction was not
cost -effective. It questioned only the negotiated rate used in the calculation. According to
HCFA' s Health Standards and Quality Bureau , the total cost of a preprocedure review was
$25. 70. The cost was composed of $9. 00 in varable cost and $16. 70 in fixed cost. The HCFA
stated the national average negotiated rate per review was $9. 00 which is only part of the total
cost.

The HCFA believes that they have no data to support targeting high volume ophthalmologists.
We did not suggest that targeting be based solely on volume. Our examples of targeting options
included not only high volume providers but also certn geographical areas as well as random
selection. A targeted program would give the PROs the flexibilty to perform their review
according to local conditions and practices.

The HCFA also suggested that the sentinel effect be considered before implementing targeted
reviews. A targeted program such as a second opinion program would stil provide a sentinel
effect since physicians know that they could face peer review. In fact a targeted program would
be more efficient since it would stil provide a sentinel effect without doing a 100 percent review.

The full text of HCFA' s comments and our detailed responses to them appear in Appendix C.
                                                        ...........................................................................................
                                                                    .,................ ......................
                                                                           .... """ ......  
                 ...................................... ..




                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION.................................................... ..................................................


               Preprocedure Review Overview.................................. ........................................ 


FINDINGS........................................ 





RECO MMEND A TIO NS

ENDNOTES..............................................................................................................


APPENDIX A

               HCFA Procedure List - PRO Third Scope of Work...................................... A­

APPENDIX B

               PRO Prior Authorization - Third Scope of Work Denial Rates........................


APPENDIX C


               HCFA Comments .,.......... ..,...                                           ................ .............. ....................... C­

                             INTRODUCTION

PURPOSE

The purpose of this report is to assess the cost-effectiveness of the Medicare Peer Review
Organizations ' (PROs) CUITent preprocedure review process.


BACKGROUND

In each State, HCFA contracts with a Utilization and Quality Control Peer Review Organization
commonly known as a PRO , to review the appropriateness and quality of surgery physicians
perform on Medicare beneficiares. The HCFA admnisters the Medicare program and has
regulatory oversight of PRO activities. The HCFA renews or competitively rebids PRO
contracts on a 3- year cycle. The PRO contracts are renewed on a staggered basis. However, as
of April 1989 all PROs were operating under the third scope of work.

The Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA) calls for 100 percent
peer review of certain surgical procedures. The COBRA also permts PROs to require a second
surgical opinion when it questions the reasonableness and necessity of the proposed surgery.
Regulations to implement the COBRA second opinion provision are cUITently being formulated
at HCFA.

CUITently, each PRO conducts 100 percent review of 10 diferent elective surgical procedures
prior to surgery to determine reasonableness and medical necessity. The HCFA requires review
of cataract extraction and carotid endarerectomy. Each PRO chooses eight other surgical
procedures and submits documentation to support these selections. The PRO also reviews 5
percent of the selected procedures retrospectively, veriying the information on which it based its
preprocedure determinations.


METHODOLOGY

We obtained HCFA data on the preprocedure reviews conducted under the third scope of work
through calendar year 1989. The data included the total number of requests for preprocedure
review , the percentage of denied requests, and the negotiated cost associated with the
preprocedure review. We compared this data with the results of a companion OIG study of the
necessity and quality of outpatient surgery.

We contacted the American Medical Peer Review Association (AMPRA), a trade association
which represents PROs, to advise them of our review and solicit their help in facilitating contacts
with the PROs.
We obtained data on the preprocedure review process from PROs responsible for 28 States
(some PROs have contracts with more than one State). These PROs represent over 80 percent of
both Medicare physician expenditures and the Medicare eligible population.

We gathered inforn1ation from PROs about their preprocedure review process. The data
requested included total number of preprocedure requests; number of preprocedure requests by
procedure; number of requests forwarded to PRO physicians; overall percentage of denied
requests; and percentage of denial rates by procedure. We also analyzed secondary data
concerning the preprocedure review process and its effectiveness. Finally, we obtained PROs
views on the current preprocedure review , as well as suggestions to improve its effectiveness.

We did not analyze the deterrent or " sentinel effect " of preprocedure review due to lack of
historical data. The sentinel effect causes physicians to recommend fewer unnecessar surgeries
because they know their recommendations face peer review. We understand that HCFA is now
launching longitudinal studies to evaluate the sentinel effect.
PRO PRE PROCEDURE REVIEW PROCESS: OVERVIEW

Surgical procedures

The HCFA instructs PROs to select eight surgical procedures for review (in addition to cataract
extractions and carotid endarterectomies) and submit documentation supporting their choices.
The PROs select these 8 from a list of 11 procedures provided by HCFA (see Appendix A). The
HCFA procedures are based on national data. They are high cost, high volume, or have a high
nonconfirmation rate when subject to review. Most are performed on an inpatient basis.

The PROs can , based on supporting documentation and subject to HCFA approval , select
procedures not on the HCFA list. However, few PROs have done so.

Review criteria

Each PRO develops review criteria against which it screens preprocedure requests. Typically,
PROs develop their criteria in consultation with State medical specialty societies representing the
selected procedures. As a result , criteria can var from State to State.

The PROs submit the criteria to the HCFA regional offce , which must review and approve them
before they can be used. Once HCFA approves the criteria, the PROs must share them with
providers.

ReJ,iew process

The review process itself does not var significantly among PROs. Physicians initiate the
review process when they recommend a Medicare beneficiar undergo 1 of the 10 procedures for
which the PRO requires preprocedure review. Typically, the recommending surgeon , a staff
member, or hospital staff, telephones the PRO to review the patient s condition and seek
preprocedure approval. Most PROs also accept mail requests and a few accept them via
facsimile machine.

Initial review by registered nurses

Registered nurses (RNs) review the initial preprocedure request , comparg the physician
diagnosis and the patient s symptoms against the PRO criteria for that surgical procedure. The
RN s can approve the request based on the information the physician (or physician
represen tati ve) provides.

However, if the request does not meet the criteria or if the physician proposes a setting the PRO
believes is inappropriate , the RN refers the case to the PRO physician advisor for review.

PRO physician review

The PRO physician conducts a second review of the requests which have not met the criteria
often contacting the recommending surgeon to discuss the case further. After the review , the
PRO physician has three choices: approve the procedure for inpatient surgery, approve the
procedure for outpatient surgery, or deny the request altogether.

When a PRO approves a preprocedure request , it assigns the case an approval number. When the
PRO denies a request altogether, it typically infonns both the surgeon and the patient of the
decision , the rationale , and an explanation of appeal rights.

Retrospective validation review

The HCFA requires PROs to retrospectively review the medical records from 5 percent of their
preprocedure requests on a quarterly basis. The purpose of retrospective review is to verify the
PRO' s preprocedure determination of medical necessity.
                                      FINDINGS

PRO PREPROCEDURE REVIEW FOR CATARACT EXTRACTION IS NOT
COST- EFFECTIVE.

The PROs responsible for 17 States, representing over half of the Medicare eligible population
provided detailed information which clearly demonstrate that preprocedure review for cataract
extraction is not cost-effective. (The PROs responsible for the other 11 States in our review did
not provide detailed information. ) From the beginning of the third contract cycle through
January 30, 1990, those 17 PROs processed about 519,000 preprocedure requests for cataract
extractions. Only about 370 (0. 07 percent) were denied. 1 By way of contrast , a companion OIG
study to be released under separate cover found that, based on a review of patient records , 1.
percent of the cataract extractions were not medically indicated.

Based on a HCFA-negotiated cost of $25. 70 per preprocedure review and an average
reimbursement amount from a lO- State sample of $3, 695 for a cataract extraction , Medicare paid
about $13. 3 milion to save $1.4 millon from surgery denials.


Our results are coIToborated by a recent study performed in Michigan , which reported the
Michigan PRO denied only 14 of 38 008 preprocedure review requests for cataract extractions.
This is a denial rate of less than 0. 04 percent. According to this study, Medicare spent $980, 000
to deny $42, 000 worth of cataact extractions.


THE COST- EFFECTIVENESS OF THE PREPROCEDURE REVIEW PROCESS IS
DOUBTFUL FOR OTHER PROCEDURES AS WELL.

Our analysis of PRO data indicates very few preprocedure requests are reviewed by PRO
physicians, and almost none are denied.

      PROs deny fewer than    15   out of each 10 000 preprocedure requests. Some of these are
      technical denials.

      Virtually all PROs have denied less than 1 percent of their preprocedure requests since the
      third contracts began (see Appendix B). The overall denial rate is 0. 15 percent , but even
      this rate is misleading, because it includes technical denials for site of service. While we
      did not determine the actual number of technical denials, we were told by a number of
      PROs that many of their denials were for site of service.

      The overall denial rate for the third PRO contracts ' review of 10 procedures has dropped
      since the second contracts. The PROs reviewed five procedures under the second con­
      tracts, during which HCFA reported a denial rate of 0. 6 percent.
      Most PROs approve over 90 percent of pre procedure requests without physician
      review.

      The PROs representing 27 States provided information on the percentage of preprocedure
      requests which are approved without physician review (one PRO did not respond to this
      question). These PROs refeITed an average of 6 percent of preprocedure requests for phy­
      sician review. The PROs for 22 of these States refeITed an average of 2.4 percent of their
      preprocedure requests , while 5 PROs estimated their refeITal rates between 12 and 25 per­
      cent.

      The PROs doubt the current Medicare preprocedure review is cost-effective.

      The PROs representing 27 States responded to our inquiry on the cost-effectiveness of pre-
      procedure review. Ten said the process is not cost-effective due to low denial rates. fif­
      teen others indicated they were unable to evaluate cost-effectiveness because they lack
      historical data. These 15 PROs also indicated, however, that the process is time consum­
      ing and labor intensive , and that their denial rates are very low.

      The two remaining PROs indicated that preprocedure review is cost-effective. The denial
      rates for each of these PROs were less than 1 percent.

      Some PROs offered alternative strategies to improve the process. Twenty-six said Medi­
      care carers should share provider profile data with PROs to help them identify problem
      providers or procedures. Six noted HCFA could target preprocedure review efforts where
      PROs have identified problem procedures and or providers. Thee PROs suggested a
      more focused retrospective review on specific procedures or settings.


A TARGETED, MORE INTENSIVE APPROACH COULD IMPROVE
PREPROCEDURE REVIEW FOR CATARACT EXTRACTION.

A targeted program would give the PROs the flexibilty to perfonn their review in the way most
suited to local conditions and practices. For example , targeting could be done on high volume
providers, certain geographic areas, or on a random basis. For these cases, the PROs could
require a second opinion and subject them to physician review.

The volume of preprocedure requests for cataract extractions and resulting low denial rates have
prompted some PROs to explore other ways to prevent unnecessar surgery. Three PROs with
high volumes of cataract requests submitted unsolicited proposals to HCFA for a pilot cataract
second opinion program. One State s Ophthalmology Society even agreed to pay the cost of
second opinion consultations. Other PROs informed us they had considered proposing such a
pilot program , but did not take action after they leared HCFA had not taken action on similar
proposals.
Nineteen of the PROs contacted said a limited second opinion program would improve
preprocedure review. Sixteen of these indicated it would be most effective for cataract
extractions. The AMPRA also favors a focused elective surgery second opinion program
coupled with Medicare s existing preprocedure review.

The HCFA has recognized the need to allow PROs the flexibility to require second opinions for
surgical procedures performed by certain physicians. The HCFA is exploring whether the
current statute (COBRA) allows the PROs to require second opinions for physicians believed to
be performing significant numbers of unnecessar procedures.


MORE DATA IS NEEDED TO IDENTIFY OTHER PROCEDURES SUITABLE FOR
TARGETED, INTENSIVE REVIEW.

The PROs would need local rather than national data to select procedures for a targeted program
because practice patterns tend to differ between and within States. Possible sources of local data
are Medicare carers, which routinely collect and profie provider data. The PROs could use
such data to focus a targeted program on paricular providers , procedures , or geographic areas.
The HCFA has recognized that information exchange between PROs and carers can enhance
the effectiveness of the review function and is cUITently working to implement this information
exchange.

While several PROs felt they could identify additional procedures for a second opinion program
there was no consensus regarding which procedures they would select. Procedures mentioned
most often include hysterectomy, major joint replacement , and prostatectomy.
                      RECOMMENDATIONS

The HCFA should:


                substitute a targeted, more intensive review for the current mandatory
                preprocedure review of cataract surgery.

                review the current preprocedure review process to determine whether it is
                cost-effective for other surgical procedures.



                continue efforts to implement data exchange between PROs and Medicare
                carriers.


SUMMARY OF RECOMMENDATIONS AND AGENCY COMMENTS


OIG Finding

PRO preprocedure review for cataract extraction is not cost-effective.


Agency Comments

The HCFA takes exception to the $25. 70 negotiated rate and would like the OIG to explain how
it was derived.


OIG Response

The HCFA did not question the fact that preprocedure review for cataract extraction is not
cost-effective. The HCFA questioned only the negotiated rate used in the calculation. The rate
of $25. 70 per preprocedure review was obtaned from HCFA' s Health Standards and Quality
Bureau, Offce of Peer Review, Division of Program Operations. The $25. 70 is the total cost to
perform a preprocedure review. The total cost represents $16. 70 fixed cost and $9. 00 in varable
cost. We used the total cost figure in calculating the amount paid for the preprocedure review.
However , the HCFA chose to use the varable cost of $9. 00 per review. The $9. 00 does not
represent the fixed cost but would represent the cost savings per review if preprocedure review
was eliminated. However, even if the $9. 00 were used, Medicare would stil have paid about
$4. 6 millon to save $1.4 milion from surgery denials. Preprocedure review is not cost-effective
for cataract extractions whether the total cost or the varable cost is used.
OIG Recommendation

The HCFA should substitute a targeted, more intensive review for the CUITent preprocedure
review of cataract surgery.

Agency Comments

The HCFA disagrees with this recommendation. The HCFA believes that they have no data to
support targeting high volume ophthalmologists. The HCFA also believes that the sentinel effect
should be studied prior to making a final decision about the appropriateness of the
recommendation.

OIG Response

The HCFA objects to targeting based solely on volume. However, this is not what we are
suggesting. We provided examples on how targeting could be done. Our examples of targeting
options included not only high volume providers but also certain geographic areas as well as
random selection. Data analysis would reveal problem areas to be targeted. A targeted program
would give the PROs the flexibility to perform their reviews in a way most suited to local
conditions and practices.

We recognize the importance of the sentinel effect. We believe if a targeted program such as a
second opinion program were instituted, a sentiel effect would still be present, since physicians
know that their recommendation for surgery would face peer review. A targeted review would
also be more effcient since it would not be a 100 percent review. In fact , a targeted program
could achieve the same or higher denial rate than the CUITent preprocedure review.

OIG Recommendation

The HCFA should review the CUITent preprocedure review process to determine whether it is
cost -effective.




Agency Comment

The HCFA agrees with this recommendation and is cUITently performing a study to assist in
making accurate determinations of cost-effectiveness.

OIG Recommendation

The HCFA should continue efforts to implement data exchange between PROs and Medicare
camers.

Agency Comment

The HCFA agrees with this recommendation and is actively working to establish regular
systematic data exchanges.
                       , "





                              ENDNOTES

Twelve PROs provided cataract extraction data through Januar       31 ,   1990, and five PROs
provided cataract extraction data through December 31 , 1989.

Cataract extraction cost taen from Department of Health and Human Services , Office of
Inspector General , Office of Evaluation and Inspections , Region IX study on Medicare
outpatient surgery.



Dwight E.M. Angell        Cataract Surgeons Face a Critical Eye   Health Week    April 23
1990.
                                     APPENDIX A

                    HCFA Procedure List 
    PRO Third Scope of Work

      Cholecystectomy

      Major Joint Replacement

      Coronar Artery Bypass Graft Surgery

      Percutaneous Transluminal Coronary Angioplasty

      Laminectomy

      Complex Peripheral Revascularization

      Hysterectomy

      Bunionectomy

      Inguinal Hernia Repair

10.   Prostatectomy
11.   Pacemaker Insertion




                                            A- 1

                      APPENDIX 

                       PRO Prior Authorization

                        Third Scope of Work

                            Denial Rates



PRO                       Number of Cases         Percent Denied

Alabama                          848
Alaska                         808
Arizona                      20, 035
Arkansas                         342
California                  151 134
Colorado                        706
Connecticut                   18,473
Delaware                         748
Distrct of Columbia              876
Florida                      97,420
Georgia 3
                      249
Hawaii                          076
Idaho                          690
Ilinois                          277
Indiana                      59, 889
Iowa                         18, 364                    0.43
Kansas                       18, 336
Kentucky                     30,448
Louisiana                    23, 910
Maine                         5,415
Mary land
                   18, 892
Massachusetts                23, 222                    0.46
Michigan                     70, 357
Minnesota                    20, 287
Mississippi                      104
Missouri                      75, 982
Montana                           679
Nebraska                      18, 928
Nevada                         9,477
New Hampshire                     249
New Jersey                        238
New Mexico                        290
New York                      98, 224
North Carolina
                   568
North Dakota                   5,498
Ohio                         108, 834
Oklahoma                          842
PRO                                    Number of          Cases        Percent Denied

Oregon                                              622
Puerto Rico                                         987
Rhode Island                                        763
South Carolina                              21, 133
South Dakota                                 4,465
Tennessee                                   36, 072
Texas                                      104 346
Utah                                            972                            1.23
Vermont                                         896
Virgin Islands                                                                11.11
Virginia                                     23, 965
Washington                                   42, 294
West Virginia                                    663
Wisconsin                                    33, 523
Wyoming                                          017

National Total                                     590, 442



Thirteen States ' PROs began preprocedure review between October and December 1988:
Delaware, Indiana, Kentucky, Missouri , Montana, Nebraska, Nevada, New Jersey, Oklahoma
Rhode Island, South Carolina , Washington , and Wyomig. The remainder, except for
Pennsylvania, began preprocedure review on April 1 , 1989. The Pennsylvania PRO began its
contract on December 1 , 1989. Pennsylvania processed 10, 000 requests and denied 11 during
the first two months of their contract.

National denial rate is based on a weighted average to account for differences in volume of
requests between States.

The Alaska, Idaho, and Washington State data we obtaied from HCFA was incoITect. The
correct percentages we obtained from the PRO are used in this Appendix.


Source: HCFA report   th 1/29/90
APPENDIX 

 HCFA COMMENTS





      C - 1

                                                             (.'.-    '-       '-'                       ;.    .. ':


                                                                                     7""""''"'- .

.t""..a
             DEPARTMENT OF HEALTH &. HUMAN SERVICES
                                                                 ;t.eC/
                                                                          cl




                                                                               ,3
                                                                               vv
                                                                                             Health

                                                                                             Financing Administration




                                                                                             Memorandu
                                                                                                              ( 11




   Date        OCT I 5 1990
   From
             Gai R. Wilensky,     Ph. D.   

             Administrator

   Subject

             OIG Draft Report - " Medicare Preprocedure Review " (OEI- 03-89- 01520)

             Inspector General

             The Offce of the Secretary



                 We have reviewed the subject draft report which examines the cost effectiveness
             of the Medicare Peer Review Organizations ' (PROs) current pre procedure review
             process.

                The report questions the cost effectiveness         preprocedure review process
                                                                     of the
             for all procedures and specifically concludes that PRO preprocedure review for
             cataract extraction is nOt cost effective. The report also concludes that a more
             targeted program of preprocedure review would give the PROs the flexibility to
             perform their review in a way more suited to local conditions and practices. The
             report contains three recommendations pertaining to these findings. Our comments
             on each of these recommendations are attached.

                Thank you for the opportunity to review and comment on this draft report.
             Please advise us whether you agree with our position on the report
             recommendations at your earliest convenience.



             Attachment


                                               PDIG
                                               DIG­
                                               DIG.
                                               DIG­
                                               AIG.
                                               OGC/IG
                                                                                                              c. .
                                               EX SEC
                                               DATE SENT   101   5­
                                                                  , "




                                                                                       (2)


                                      FACT SHEET
                                   OIG Draft Report
                            Medicare Preprocedure Review

                                    (OEI- 03-89- 01520)


General Comments:


Background

The Executive Summary and Introduction of the report state              Most PROs were in
                                                           is not correct. The
their third cycle of contracts in April 1989. " This statement
difference between contract cycle and scope of work requires clarification. Most
PROs , at the time of the study, were performing under the third scope of work, but
were nOt , however , in the third contract cycle. As a result of the Omnibus Budget
Reconciliation Act of 1987 , the length of PRO contracts was changed from
2 to 3 years and we were given the authority to renew contracts on a staggered
basis. PRO contractOrs were broken down into four groups with contract renewals
for the first group for the third cycle , beginning on O tober 1 , 1988. Contract
renewals continued at 6 month intervals for each of the remaining three groups.
Contracts of PROs not under the third contracting cycle on April 1 , 1989, were
modified so that all PROs were under the third scope of work. Therefore, although
all PROs were operating under the third scope of work as of April 1, 1989 , most
were not in the third cycle   of contracts.


Findings

PRO preprocedure review for cataract extraction       is not cost effective


OIG found that Medicare expended about $13. 3 millon (based upon an alleged
HCFA-negotiated rate of $25. 70 per pre procedure review) to realize savings of
$1.4 millon due to surgery denials. HCFA takes exception to the negotiated rate
used in OIG' s projection. The national average negotiated rate per review for the
third contract cycle paid for   ambulatOry reviews (which includes preprocedure
reviews) is $9. 00. Since there is a significant difference betWeen the rate per review
cited by OIG and that l,sed by HCF A, it would be helpful if OIG explained how it
derived the $25.   70 rate per preprocedure review.

Recommendation No. I

HCF A should substitute a targeted. more intensive        review for the current
mandatory preprocedure review of cataract surgery.
                                                                                     (3 )


Page 2 - Medicare Preprocedure     Review

HCF A Response


We disagree with this recommendation. If we were to target high volume
ophthalmologists, we believe that we could be challenged for identifyng them for
                                          We have no data to support targeting these
intensified review without justification. 

ophthalmologists for review. In fact , the opposite situation may exist.
Ophthalmologists who have " average " or " below average " surgical rates and practice
in an area where a high volume physician practices, may be performing unnecessary
surgery to compensate for the loss of revenue. HCF A is currently studying the
effectiveness of PRO review. We will decide how extensive a review of cataract
surgery should be performed after these studies are completed. An additional
factor that should be considered before implementing targeted reviews is the
sentinel effect of the preprocedure review. The sentinel effect causes physicians to
recommend fewer unnecessary surgeries because they know their recommendations
face peer review. Although OIG recognizes the sentinel effect of preprocedure
review was not considered in this report , we believe a study of this subject should
be completed before HCFA makes a final decision about the appropriateness of the
recommendation. In fact , HCF A is conducting a longitudinal study of the sentinel
effect of the pre procedure review of cataract surgery which should clarify OIG'
concerns regarding the cost effectiveness   of the    existing preprocedure review
program.

Recommendation No.

HCF A should review the current pre procedure review process to determine whether
it is cost effective for Other surgical procedures.

Response

We agree with this recommendation.       HCF A   is currently analyzing the data
submitted by PROs to determine review levels and denial rates. In addition, HCF
is performing a study which wil assist in making an accurate determination of cost
effectiveness of the reviews being performed. Since the pre procedure review is
Congressionally mandated. we are in the proce:ss of making decisions about which
surgical procedures should be subjected to prior authorization and wil modify

review requirements as appropriate.

                                                                                     (4 )




Page 3 - Medicare Preprocedure Review

Recommendation No.

HCF A should continue efforts to implement data exchange between PROs and
Medicare carriers.

Response

We agree with this recommendation. HCFA is actively workig to establish regular
systematic data exchanges between PROs and carrers. PROs and carrers were
recently asked to make recommendtions concerning the .tyes of information to be
exchanged. We are in the process of analyzng the results of our inquiries and will
be issuing instructions that wil enhance information exchanges between the PROs
and carrers.
